December 5, 2003

WILLIAM P. GALLIGAN
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

DANNY C. JACKSON
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Fraudulent Damage Claim
         Practices in the Greater Indiana District (Report Number NL-AR-04-001)

This report presents interim results from our self-initiated vehicle maintenance facility
audit (Project Number 02YG012TD002). The report focuses on fraudulent practices
Greater Indiana District officials used to submit damage claims to private insurance
companies.

                                           Background
On March 6, 2002, the Office of Inspector General (OIG) initiated an audit of vehicle
maintenance facilities to determine whether vehicle maintenance facility operations
were effective, and to identify opportunities to save money. During the course of our




           Postal Service vehicle involved in vehicle accident in the Greater Indiana District.

work, we received a referral from the OIG Assistant Inspector General, Investigations,
that Postal Service officials in the Greater Indiana District may be committing fraud by
submitting false invoices to private insurance companies. As a result, we developed
additional audit steps to determine whether these fraudulent practices were widespread
in Indiana and elsewhere.
Vehicle Maintenance Facilities – Fraudulent Damage                               NL-AR-04-001
 Claim Practices in the Greater Indiana District



The Postal Service has 326 vehicle maintenance facilities nationwide. These facilities
manage a fleet of more than 200,000 vehicles. Over 3,200 are assigned to the Greater
Indiana District. The vehicles are periodically involved in accidents caused by private
parties.

                         Objective, Scope, and Methodology
The purpose of this report is to notify management of fraudulent practices Greater
Indiana officials used to support damage claims to private insurance companies. We
examined OIG investigative files, including witness statements and other relevant
investigative material. We also examined relevant Postal Service policies and
procedures, vehicle repair records, and claim records for fiscal years 2001 through
2003. We interviewed Postal Service officials at headquarters, in the Great Lakes Area,
and in the Greater Indiana District; visited facilities throughout the district; interviewed
vehicle maintenance facility personnel and other employees; and visited the Capital and
New Hampshire Districts to compare claim filing procedures. Work associated with this
audit was conducted from March through December 2003 in accordance with generally
accepted auditing standards, and included such tests of internal controls as were
considered necessary under the circumstances. Since we had material indicators of
fraud, based on testimony, we could not rely on the ethical or internal control
environment. Consequently, our work was constrained and we could not determine
the scope, monetary impact, or other effect of the improper activity. Nonetheless, we
performed sufficient alternative procedures to form a reasonable basis for our opinions.
We discussed our conclusions and observations with appropriate management officials
and included their comments, where appropriate.

                                    Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                              Results
Fraudulent Claim Practices

Our audit concluded Greater Indiana District vehicle maintenance facility managers
used fraudulent and other improper practices to submit damage claims to insurance
companies. Our audit also concluded there were no controls in place to detect and
deter such practices and a climate existed where these practices were considered
acceptable.

The Postal Service Employee and Labor Relations Manual, Section 600, Subject:
Conduct, requires employees to:




                                                     2
Vehicle Maintenance Facilities – Fraudulent Damage                              NL-AR-04-001
 Claim Practices in the Greater Indiana District


    •   Avoid any action affecting adversely the confidence of the public in the integrity
        of the Postal Service.

    •   Not engage in criminal, dishonest, notoriously disgraceful, or immoral conduct, or
        other conduct prejudicial to the Postal Service.

Other policy governing Postal Service employees includes:

Title 5, Code of Federal Regulations, Part 2635, Standards of Ethical Conduct for
Employees of the Executive Branch, Section 101, requires employees to:

    •   Be honest in the performance of their duties.

    •   Report fraud or unethical conduct.

    •   Avoid the appearance of illegal or unethical conduct from the perspective of a
        reasonable person with knowledge of the relevant facts.

The Postal Service Handbook PO-701, Fleet Management, dated March 1991, identifies
specific management controls—including those for processing vehicle damage claims.
Paragraph 263, “Claims for Damage to Postal Service Property,” states that when
Postal Service vehicles are damaged by a private party, Postal Service officials are
required to determine monetary damage and make a claim for restitution. The
paragraph requires labor rates to be billed at actual rate schedules established by
Postal Service Headquarters, and requires management to document claims in a way
that allows insurance companies to audit the information.

Paragraph 263, which pertains only to claims filed by the Postal Service, does not
otherwise contain controls to establish what procedures must be followed to determine
monetary damage or what documentation must be retained for audit. However,
paragraph 266 is instructive because it contains specific procedures for claims filed
against the Postal Service. For example, it states claims must be supported by repair
estimates on business letterhead from two reputable garages, and can only include
damage or other incidental costs actually incurred.

OIG investigative records documented:

    •   The Fort Wayne Vehicle Maintenance Facility manager admitted he used
        one body shop exclusively; he knew the body shop prepared fraudulent
        estimates; and he used fraudulent documents to support insurance company
        damage claims.




                                                     3
Vehicle Maintenance Facilities – Fraudulent Damage                            NL-AR-04-001
 Claim Practices in the Greater Indiana District


    •   The manager explained: (1) the body shop prepared an estimate on its own
        letterhead; (2) prepared a higher bogus estimate on the letterhead of a
        competitor; and (3) the bogus estimate was used to meet insurance company
        requirements.

    •   Other vehicle maintenance facility employees confirmed the practice and
        explained it was intended to circumvent insurance company requirements.

In addition to information developed by investigators, our audit validated insurance
claims by the Greater Indiana District were improper and inflated. Specifically:

    •   A Fort Wayne Vehicle Maintenance Facility manager admitted he used fabricated
        estimates to support insurance company claims, in the event insurance
        companies requested more than one estimate for the damages. However, he
        stated he stopped obtaining the fabricated estimates during the OIG investigation
        in 2002.

    •   Fort Wayne Vehicle Maintenance Facility managers routinely inflated vehicle
        repair parts by 26 percent for shipping and handling, even though shipping and
        handling costs were not incurred. For example, a rear bumper taken directly
        from consigned inventory, cost the Postal Service $672, but was itemized at
        $845 on an insurance company claim. Managers explained the $173 mark-up
        was for shipping and handling even though shipping and handling was not
        required. A Greater Indiana District official explained the practice was
        widespread and followed industry standards. However, (1) he could not
        provide documentation to support his statement; (2) we could not identify an
        industry standard that permitted charging for cost not incurred; (3) headquarters
        officials stated Postal Service policy did not authorize such mark-ups; and (4) a
        judgment sample of claims in the Capital and new Hampshire Districts concluded
        that those districts complied with the “actual cost” provisions of Handbook
        PO-701.

    •   Improper mark-up practices were not restricted to Fort Wayne. For example,
        South Bend Vehicle Maintenance Facility managers indicated they marked-up
        claims by 30 percent.

    •   The $40 per hour labor rate specified by Greater Indiana District officials for
        damage claims was not based on actual labor rate schedules as required by
        Handbook PO-701; was not otherwise supported by an analysis to establish an
        appropriate rate; and was inconsistent with rates used in the Capital and
        New Hampshire Districts procedures which applied Postal Service published
        rates.

Greater Indiana District officials submitted improper and fraudulent claims because an
environment existed where these practices were acceptable. For example:



                                                     4
Vehicle Maintenance Facilities – Fraudulent Damage                               NL-AR-04-001
 Claim Practices in the Greater Indiana District



    •   Vehicle maintenance facility managers or employees who were aware of
        fraudulent estimates, did not report the fraud; thus violating the Postal Service
        Employee and Labor Relations Manual.

    •   Managers and officials fostered illegal or unethical activity by condoning bogus
        estimates and the submission of damage claims for costs not actually incurred.

    •   Postal Service policy controlling damage claims is outdated. For example,
        relevant provisions of Handbook PO-701 have not been updated in more than
        12 years and do not contain needed information on claim preparation,
        documentation, or record retention.

As a result of the weak ethical and control environment, the Postal Service is exposed
to potential allegations of fraud, overcharging, and other impropriety.

Recommendation

We recommend the acting vice president, Delivery and Retail:

    1. Develop controls, policies, and procedures necessary to ensure claims practices
       followed by Postal Service officials are appropriate, consistent, can be
       reasonably examined or audited, and contain provisions that ensure damage
       claims are supported only by actual costs. Publish the controls, policies, and
       procedures in a Postal Service Bulletin; and incorporate into Handbook PO-701
       Fleet Management, dated March 1991.

Management’s Comments

Management agreed with the recommendation. They stated Handbook PO-701 could
and should be improved; they would work with managing counsel at the National Tort
Center to revise the handbook; and they planned to publish the revision no later than
December 31, 2003. They also stipulated their published claim recovery labor rates
would incorporate system wide overhead costs. Management’s comments, in their
entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments were responsive to our recommendation. We believe the
actions management has taken or planned are sufficient to address the issues we
identified in our report.




                                                     5
Vehicle Maintenance Facilities – Fraudulent Damage                           NL-AR-04-001
 Claim Practices in the Greater Indiana District


Recommendation

We recommend the vice president, Great Lakes Area Operations:

    2. Take appropriate actions against Postal Service employees who followed or
       condoned improper claim practices; refund money obtained through fraudulent or
       improperly inflated claims; and report action taken to the OIG.

Management’s Comments

Management concurred that Postal Service managers used or condoned bogus
estimates to support insurance company claims, concurred such activity was
inappropriate, and stated the practice was immediately stopped when identified by OIG
auditors. Management requested access to our files, witness statements, and other
relevant records; stated they would review those records to determine the extent of
improper activity; and indicated they would take corrective action as warranted under
the circumstances.

Evaluation of Management’s Comments

Management’s comments were responsive to our recommendation. We believe the
actions management has taken or planned are sufficient to address the issues we
identified in our report.

Recommendation

We recommend the vice president, Great Lakes Area Operations:

    3. Take immediate action to ensure inflated damage claims are not tolerated,
       damage claims are supported only by actual costs, can be reasonably examined
       or audited, and are consistent with the Standards in the Postal Service Employee
       and Labor Relations Manual.

Management’s Comments

Management concurred that Postal Service managers used or condoned bogus
estimates, emphasized that they had already stopped the practice, and stated insurance
company damage claims were now based on paid itemized repair bills. However, they
also stated that they had already determined labor and parts rates were not inflated,
and consequently, considered our recommendation moot.

Evaluation of Management’s Comments

Management’s comments were not responsive. Management did not explain how they
determined labor and part rates were not inflated, and they did not address certain other



                                                     6
Vehicle Maintenance Facilities – Fraudulent Damage                          NL-AR-04-001
 Claim Practices in the Greater Indiana District


aspects of our recommendation. For example, they did not explain how they intend to
ensure damage claims can be reasonably audited. Nonetheless, we consider the
actions to which management already agreed sufficient to address the issues we
identified. Consequently, we will not pursue the matter through the formal resolution
process at this time, but will defer such a decision until after we evaluate the
effectiveness of management’s action during our standard procedure for closing
significant recommendations.

The OIG considers recommendation 1, 2, and 3 significant, and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information please contact Joe Oliva,
director, Network Operations - Logistics, at 703-248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Patrick R. Donahoe
    John A. Rapp
    Michael F. Spates
    Susan M. Duchek




                                                     7
Vehicle Maintenance Facilities – Fraudulent Damage       NL-AR-04-001
 Claim Practices in the Greater Indiana District


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                     8
Vehicle Maintenance Facilities – Fraudulent Damage       NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     9
Vehicle Maintenance Facilities – Fraudulent Damage        NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     10
Vehicle Maintenance Facilities – Fraudulent Damage        NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     11
Vehicle Maintenance Facilities – Fraudulent Damage        NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     12
Vehicle Maintenance Facilities – Fraudulent Damage        NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     13
Vehicle Maintenance Facilities – Fraudulent Damage        NL-AR-04-001
 Claim Practices in the Greater Indiana District




                                                     14
